              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Reindustrialization of the East Tennessee
Technology Park




DOE/IG-0623                                 October 2003
REINDUSTRIALIZATION OF THE EAST TENNESSEE
TECHNOLOGY PARK

TABLE OF
CONTENTS



                Program Accomplishments

                Details of Finding ....................................................................... 1

                Recommendations and Comments ........................................... 6


                Appendices

                Prior Audit Reports ..................................................................... 9

                Objective, Scope, and Methodology ........................................ 10

                Management Comments .......................................................... 12
PROGRAM ACCOMPLISHMENTS

Background                The Community Reuse Organization of East Tennessee (CROET), with
                          Bechtel Jacobs Company, LLC, (Bechtel Jacobs) assistance, has acted
                          as a leasing agent to attract private companies interested in leasing
                          buildings, space, and equipment at the East Tennessee Technology Park
                          (ETTP). The Department of Energy (Department) leased facilities and
                          equipment to CROET at no cost, and CROET sublet these facilities to
                          commercial companies. CROET attracted tenants with innovative
                          leasing arrangements such as favorable lease terms for buildings where
                          commercial entities assumed some or all of the responsibility for
                          cleanup activities.

Safe and Cost-Effective   Under the reindustrialization program, emphasis has been given to
Cleanup                   cleaning up buildings with perceived reuse potential while work on the
                          site's most contaminated and unsafe building has been deferred.
                          Despite this strategy, little savings or contributions to the cleanup effort
                          have been realized, and the Department has obtained few commitments
                          for the reuse of available buildings.

                          When reindustrialization began, ETTP's Building K-25 posed the
                          greatest risk to workers and the environment from exposure to
                          radioactive, hazardous, and toxic materials, and from structural
                          collapse. It is the oldest production facility at the site, and is classified
                          as a Nuclear Category 2 building1/. Nonetheless, while the Department
                          has been focusing on reindustrialization, little has been done to lessen
                          risks associated with K-25. For example, Bechtel Jacobs reported that
                          from 1998 to 2002, the number of damaged roof panels increased by
                          546 percent and the number of damaged floor panels nearly doubled.
                          Bechtel Jacobs also reported that beams had so degraded that workers
                          may have to reinforce the structure before decontamination and
                          decommissioning efforts begin. Overall risks to workers, who must
                          wear respirators while carrying out required surveillance and
                          maintenance activities, are significant. Moreover, surveillance and
                          maintenance costs for the building are the highest on site at $5 million a
                          year.

                          Notwithstanding the conditions associated with K-25, the Department
                          spent over $231 million to clean up buildings with lower health and
                          safety risks but greater perceived potential for reuse. For example, as



                          1
                           A Nuclear Category 2 building is one that has a potential for significant on-site
                          consequences or the potential for criticality.



Page 1                                                                                    Details of Finding
         of October 2002, the Department had paid BNFL, Inc. (BNFL) about
         $219 million to decontaminate and decommission Buildings K-29, K-31,
         and K-33, and to prepare them for reuse. BNFL has made progress in
         completing the cleanup of K-33 and disposed of significant amounts of
         contaminated material and equipment. However, whatever perceived
         appeal the buildings might have had to prospective tenants, at the time of
         our audit, no commitments were made to take title to the buildings.

         In fact, the reuse of K-29 and K-33 remain highly questionable.
         According to CROET's 2000 Strategic Plan, the K-29 facility "… is
         contaminated, dilapidated, aesthetically unpleasing, and … an extremely
         unlikely candidate for reuse." The reuse of K-33 is also questionable if
         widespread polychlorinated biphenyl contamination on the building's
         floor cannot be mitigated. According to a project management
         document, all of the BNFL buildings may have contaminated soils
         underneath them. Department officials indicated that CROET is
         reluctant to, and may not be able to, accept any facilities that have
         contaminated soil underneath them. Thus, it is doubtful the Department
         will transfer any of the BNFL buildings to CROET.

         Further, the audit disclosed that reindustrialization has not, despite
         expectations, reduced overall cleanup costs at ETTP. We estimated that
         since 1997, the Department has spent approximately $51 million for
         Bechtel Jacobs' reindustrialization support activities, but has only
         realized $4 million in verifiable cost reductions. The cited
         reindustrialization support activities do not include costs associated with
         decontamination and decommissioning and are comprised of the
         following:

            •   $41 million, including $4 million in incentive fees, for the
                Bechtel Jacobs reindustrialization organization. Bechtel Jacobs
                currently has a staff of 11 devoted to the program. This group
                works with CROET to market buildings to the private sector,
                negotiate barter agreements with private companies to clean
                buildings at reduced rates, and to prepare the necessary
                environmental surveys and documentation.

            •   $10 million on ETTP infrastructure maintenance and upgrades,
                such as roof replacements and repairs, to support leasing
                activities. These improvements were made primarily on the basis
                of potential reuse.




Page 2                                                          Details of Finding
                    During our review, management stated that the Department has saved
                    millions of dollars in surveillance and maintenance costs for buildings
                    that were leased to CROET because CROET paid all surveillance and
                    maintenance costs during the leases. We recognize that the Department
                    may have realized some reduction in surveillance and maintenance
                    costs for facilities leased by CROET. However, management was
                    unable to specifically quantify or document any of these cost
                    reductions. Further, the available evidence leads us to conclude that the
                    cost reductions were relatively minor because the leased facilities cited
                    by management included administrative facilities and office buildings
                    that were in good condition when CROET took control of the space.

Program Goals and   The reindustrialization program's goals did not always lead to actions
Controls            consistent with promoting a safer and more cost-effective cleanup.
                    Reindustrialization's emphasis was attracting tenants to reuse ETTP
                    facilities that were no longer needed by the Department. According to
                    the Department's 1998 report, Accelerating Cleanup: Paths to Closure,
                    reindustrialization was established to develop and implement a reuse
                    plan for a full transition from the Department and its prime contractors
                    to the private sector. Similarly, CROET's 2000 Strategic Plan stated
                    that reindustrialization revolves around current and future opportunities
                    to acquire reusable industrial space from the Department and lease it to
                    the private sector. In contrast, the Office of Environmental
                    Management's (Environmental Management) primary goal was to
                    accelerate risk reduction and cleanup. At ETTP, cleanup decisions
                    were generally based on the perceived potential for reuse rather than an
                    assessment of environmental risk. As a consequence, work on the
                    building with the greatest health and safety concern was deferred in
                    favor of buildings viewed as attractive to a commercial user.

                    In addition, the Department had not established project controls
                    sufficient to ensure that the program actually accelerated cleanup and
                    reduced costs. For example:

                       •   Funds to prepare ETTP facilities for reuse were expended
                           without any commitment from CROET to take ownership of the
                           buildings being renovated;

                       •   Similarly, BNFL's scope of work allowed decontamination and
                           decommissioning activities for reuse without any requirement
                           for the identification of a customer; and,

                       •   CROET was not required to contribute a portion of its lease
                           revenues toward ETTP cleanup and closure.

Page 3                                                                    Details of Finding
                             Regarding the sharing of revenues, the Department envisioned, at the
                             program's inception, using some of the funds from commercial leases
                             to accelerate cleanup and reduce overall costs. Through the end of
                             FY 2002, however, CROET contributed only $136,000 of the over
                             $4 million collected in rent revenue to cleanup activities at ETTP.
                             Oak Ridge Operations Office officials we spoke to were not
                             knowledgeable about CROET's lease revenues and expenses because
                             the information was considered to be proprietary.

                             In 2002, Environmental Management began a program to accelerate
                             risk reduction and cleanup while protecting the health and safety of
                             workers and the public, protecting the environment, and improving
                             national security. To accelerate cleanup and closure at ETTP, the
                             Oak Ridge Operations Office developed an accelerated closure
                             schedule focused on rapid risk reduction and site closure by 2008.
                             Under the Accelerated Closure Plan, some of the facilities that are
                             currently leased to CROET will be made available for transfer to
                             CROET between 2003 and 2006. If CROET does not accept
                             ownership of the facilities according to the Department's schedule,
                             the facilities will be decontaminated, decommissioned, and
                             demolished on an accelerated schedule to support site closure by
                             FY 2008. While this is a positive step, proposed title transfer dates
                             on several of the facilities have already been extended by at least one
                             year.

Effective Use of Funds and   In our judgment, the Department could have received a better return
Risk Reduction               on its investment if the funds used for reindustrialization had been
                             used, instead, to decontaminate, decommission, and demolish high-
                             risk facilities at ETTP. Since 1996, the Department had spent $242
                             million to decontaminate and decommission several ETTP facilities
                             and prepare them for reuse or demolition. However, only about 5
                             percent of ETTP's square footage was leased to CROET tenants, and
                             less than 3 percent of the square footage was actually demolished.

                             Meanwhile, deterioration of the K-25 building continues to
                             accelerate and the potential for release of hazardous substances to the
                             environment increases. Such releases could jeopardize the health
                             and safety of workers, including increased risk of cancer, and could
                             damage the environment.

                             Further, the Department continues to spend $60 million a year to
                             maintain and safeguard the site, a figure that would be lower had
                             some of the high-risk buildings been addressed. In addition, the


Page 4                                                                          Details of Finding
         Department plans to spend another $26 million of Environmental
         Management funds for activities that do not directly relate to risk
         reduction or site closure. Specifically, the Department plans to
         spend $17 million for future Bechtel Jacobs' reindustrialization
         support activities, and $9 million to prepare the BNFL buildings for
         reuse, even though they are unlikely to be reused because of
         widespread contamination.

         Finally, we identified $673,000 in questionable costs paid by the
         Department for CROET tenants' bad debts. The Department paid
         $534,000 in uncollectible phone and maintenance bills and $139,000
         in unpaid utilities. Federal Acquisition Regulation 31.205-3 states
         that bad debts arising from uncollectible customer accounts are
         unallowable. Unpaid utilities costs are also discussed in the Office
         of Inspector General Report DOE/IG-0609, Utility System Leases at
         the East Tennessee Technology Park (June 2003).

         During our review, management stated that the ETTP
         reindustrialization program had met the Department's goals by
         reducing overall cleanup costs and accelerating closure of the site.
         Management stated that the BNFL contract would save the
         Department millions of dollars in cleanup costs if CROET accepts
         ownership of the buildings. However, subsequent to the issuance of
         our draft report, the Department directed BNFL to remove
         decontamination activities from the K-29 building's scope of work.
         Without these activities, this facility will not meet the regulatory
         requirements for transfer.

         We recognize that the Department could realize substantial benefits
         from the ETTP reindustrialization program if CROET eventually
         takes ownership of ETTP facilities and accepts full responsibility for
         surveillance, maintenance, and future decontamination and
         decommissioning costs for the facilities. For example, if CROET
         takes ownership of buildings K-31 and K-33 and accepts full
         responsibility for surveillance and maintenance of the facility, the
         Department could avoid over $60 million in demolition costs
         because the buildings would not have to be removed.

         However, the Department has not yet transferred any buildings to
         CROET, and the regulators have not approved the process for doing
         so.2/ Thus, while the Department has made major investments in the

         2
           In October 2003, the Oak Ridge Operations Office plans to submit a draft report,
         Title Transfer Process for Facilities at the East Tennessee Technology Park, to the
         regulators for review.

Page 5                                                               Details of Finding
                       reindustrialization of ETTP facilities, it has no assurance that
                       CROET will accept ownership of the buildings being prepared for
                       transfer. Also, the contaminated soil underneath buildings to be
                       transferred to CROET cannot be remediated until the buildings are
                       demolished. As a result, the Department's soil remedial actions are
                       delayed indefinitely by efforts to prepare the facilities for potential
                       reuse.


RECOMMENDATIONS        We recommend that the Assistant Secretary for Environmental
                       Management:

                          1. Discontinue use of Environmental Management funds to
                             prepare ETTP facilities for reuse except where CROET has
                             formally agreed to accept ownership of the facilities;

                          2. Evaluate the cost benefit impacts of modifying BNFL's scope
                             of work and contract price to eliminate preparation of the
                             buildings for reuse unless CROET formally agrees to accept
                             ownership of the facilities before the work is performed;

                          3. Require CROET to pay a proportionate share of surveillance
                             and maintenance costs for facility space leased by CROET or
                             CROET tenants; and,

                          4. Determine the allowability of costs paid for CROET tenants'
                             bad debts and seek recovery of costs determined to be
                             unallowable.

MANAGEMENT REACTION    The Assistant Secretary for Environmental Management concurred
AND AUDITOR COMMENTS   with the spirit of the recommendations, but expressed concerns with
                       some of the statements in the report. In some cases, we modified the
                       report to reflect management's technical comments. Other
                       management comments, along with our responses, are discussed
                       below.

                       The Assistant Secretary found the conclusions in the report to be
                       consistent with the Department's Top to Bottom Review of the
                       Environmental Management Program. As a result of the Secretary
                       of Energy's direction to implement the recommendations of the Top
                       to Bottom Review, an accelerated cleanup plan for Oak Ridge
                       Reservation was established with the regulators in 2002. The plan
                       focuses on risk reduction and closing the ETTP by 2008. The
                       Assistant Secretary stated that leasing has been discontinued and
                       reindustrialization through title transfer will be pursued if it reduces

Page 6                                                 Recommendations and Comments
         costs and can be accomplished in advance of the ETTP
         decommissioning schedule, which is responsive to recommendation
         1. The Assistant Secretary did not provide any corrective actions for
         recommendations 2, 3, or 4. The Assistant Secretary further stated
         that the Oak Ridge Operations Office (Oak Ridge) identified a
         number of statements of opinion that required correction and
         attached Oak Ridge comments to their management comments. The
         Assistant Secretary's comments are included as Appendix 3.

         As further discussed below, Oak Ridge management did not agree
         with our conclusion that emphasis has been given to
         reindustrialization while work on contaminated and unsafe buildings
         has been deferred, that costs savings attributed to reindustrialization
         were not accurate, and that the Department has spent funds to
         enhance the marketability of buildings.

         Oak Ridge management agreed that building K-25 is a priority in
         terms of risk reduction, but stated that there are other buildings at the
         site that were debatably in as bad or worse condition. In particular,
         the K-1420 Building was a Category 2 Nuclear building and now, as
         a result of Reindustrialization's activities, its classification has been
         reduced to a "Radiological Facility." Therefore, management stated,
         it is not accurate to conclude that emphasis has been given to
         cleaning up buildings with perceived reuse potential while work on
         the most contaminated and unsafe building has been deferred.
         However, our review disclosed that in 1996, it was estimated that K-
         25 had 75 times more highly enriched uranium in its piping and
         equipment than K-1420. Further, while K-1420 has been
         downgraded as a result of work completed through the
         reindustrialization program, the lessee has vacated the facility and
         left a significant amount of work to be completed. Specifically, Area
         B of the K-1420 building remains contaminated and the lessee
         abandoned a significant amount of hazardous and radioactive waste.

         Also, Oak Ridge management stated that the Office of Inspector
         General did not accurately portray the cost savings resulting from
         reindustrialization. While the audit report indicates $4 million in
         verifiable cost savings and $51 million in program costs,
         management stated that the Department has identified $538 million
         in verifiable life-cycle cost reductions and avoidances; and $41
         million in program cost reductions from the reindustrialization
         program. We disagree that reindustrialization will provide the
         Department with $538 million in verifiable savings. The


Page 7                                   Recommendations and Comments
         $469 million in cost avoidance from the BNFL contract is
         attributable to a change in contracting approach rather than
         reindustrialization. In addition, management's claimed cost savings
         of $30.3 million for leasing the utility systems to CROET may not be
         realized. In our report on, Utility System Leases at East Tennessee
         Technology Park (DOE/IG-0609, June 2003), the Office of Inspector
         General found that the Department is paying about the same for
         utilities as it did before it entered the leases. Also, we question the
         validity of $11.4 million in savings by transferring surveillance and
         maintenance costs from the Department to CROET. We were
         unable to obtain any detailed support from the Department to
         validate these savings during the audit. Further, the Department has
         continued to pay for surveillance and maintenance cost for many of
         the leased facilities.

         Finally, Oak Ridge management stated that, as a matter of policy,
         there were no Department-funded facility modifications to improve
         the marketability of buildings. Any Department-funded renovations
         were to be only for the purpose of protecting the Department's
         interests in the area of safety, health, security, or environmental
         protection as necessary. While management asserted that it had not
         funded facility modifications to prepare for reuse, we found several
         instances where this occurred. For example, in a memorandum
         entitled East Tennessee Technology Park Property Protection Area
         Reconfiguration - Path Forward To Proceed With Opening The Site,
         the Department justified spending $1.5 million to reconfigure the
         property protection area with the expectation that the effort would
         foster the vision of privatization and commercialization of the site.
         Additionally, on October 14, 1998, an emergency baseline change
         proposal was issued to perform overhead decontamination in K-
         1401. The change proposal stated that reindustrialization planned to
         lease this portion of the K-1401 facility starting in November 1998,
         and it was critical that the approval not be delayed. The work was
         completed, but the lease never materialized.




Page 8                                  Recommendations and Comments
Appendix 1

                                 PRIOR AUDIT REPORTS


     •   Transfer of Excess Personal Property From the Nevada Test Site to the Community
         Reuse Organization (DOE/IG-0589, March 2003) found that Nevada's personal property
         transfer practices did not strike an appropriate balance between the effort to assist
         community development and the need to ensure that taxpayers received reasonable
         consideration for property transferred to the local community reuse organization.

     •   The Decontamination and Decommissioning Contract at the East Tennessee Technology
         Park (DOE/IG-0481, September 12, 2000) found that BNFL was not on track to
         complete the decontamination and decommissioning (D&D) of three process buildings
         on schedule or within budget. The audit disclosed that the contractor's management
         team was ineffective and the Oak Ridge Operations Office did not pay sufficient
         attention to the contractor's escalating project cost. We estimated that the contract will
         cost $94 million more than the current contract amount of $250 million, and that
         completion was at least two years behind schedule.

     •   Decontamination and Decommissioning at the East Tennessee Technology Park (ER-B-
         99-01, December 1998) reported that the Oak Ridge Operations Office did not fully
         emphasize reductions in health, safety, and environmental risks when it selected D&D
         projects. Specifically, the Operations Office's contract with BNFL to D&D three
         buildings did not involve Building K-25, the facility that posed the greatest risk from
         exposure to radioactive waste, hazardous or toxic materials, and structural collapse. As
         a result, Building K-25 continued to deteriorate and hazards to workers and the
         environment were increased. We estimated that the Department could incur $34.5
         million in unnecessary surveillance and maintenance costs for Building K-25 between
         1998 and 2002.

     •   Utility System Leases at the East Tennessee Technology Park (DOE/IG-0609, June
         2003) reported that utility leases were inefficient and unnecessarily costly to the
         Department. Specifically, the leases were structured to create disincentives for reducing
         utility cost and improving operating efficiency; did not ensure that all funds the
         Department contributed for infrastructure repairs and rehabilitation were used for that
         purpose; and, did not adequately protect the Government's interests with respect to price
         adjustments and accountability over certain personal property. In originating the leases,
         the Department had not obtained competitive bids for management of the utility systems
         and infrastructure, nor had it included adequate safeguards in the lease agreements to
         protect taxpayer interests. As a result, the Department paid as much as $6.9 million
         more than it needed to for utility services at ETTP in less than a five-year period.
         Moreover, the unnecessary expenditures represent funds that could otherwise have been
         used to help meet the Department's environmental cleanup goals at the ETTP site.



Page 9                                                                               Prior Audit Reports
Appendix 2

OBJECTIVE     The objective of this audit was to determine if the reindustrialization
              program at the East Tennessee Technology Park (ETTP) had resulted in
              a safe and cost-effective program to facilitate site closure.

SCOPE         The audit was performed from June 2002 through April 2003 at the
              ETTP, the Community Reuse Organization of East Tennessee
              (CROET), and the Oak Ridge Operations Office in Oak Ridge,
              Tennessee. The scope of the audit included the reindustrialization and
              cleanup activities performed at ETTP from 1996 through 2003.

METHODOLOGY   To accomplish the audit objective, we:

                 •   Obtained and reviewed applicable laws, regulations, and
                     Departmental policies for the transfer of assets to the private
                     sector;

                 •   Reviewed reindustrialization activities and analyzed reported
                     savings derived from these activities;

                 •   Assessed cleanup activities completed since 1996 and compared
                     actual performance to the accelerated closure schedule;

                 •   Analyzed cleanup costs incurred since 1996 to determine if
                     Environmental Management funds were used for economic
                     development activities;

                 •   Examined the role CROET plays in reindustrialization at ETTP;
                     and,

                 •   Held discussions with Department, CROET, and Bechtel Jacobs
                     personnel.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Because our review
              was limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. Because
              only a limited amount of computer-processed data was used during the
              audit, we did not conduct a reliability assessment of computer-
              processed data.




Page 10                                        Objective, Scope, and Methodology
          Finally, we assessed the Department's compliance with the Government
          Performance and Results Act of 1993. The Department's Performance
          Evaluation Plan with Bechtel Jacobs had measurable performance
          standards related to the contractor's support of leasing activities.
          However, the standards did not measure the success of
          reindustrialization in accelerating cleanup and reducing cleanup costs.

          We held an exit conference with the Oak Ridge Operations Office on
          October 9, 2003.




Page 11                                   Objective, Scope, and Methodology
Appendix 3




Page 12      Management Comments
Appendix 3 (continued)




Page 13                  Management Comments
                                                                               IG Report No.: DOE/IG-0623

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
